 
 

WAIVER

Supreme Court of the United States

No. 21-232

Veena Sharma v. Domenic S. Terranova, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court. z
1

Please check the appropriate box:
O Iam filing this waiver on behalf of all respondents. —s ae

I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

PeteR FT. Caquso, 668.

Please check the appropriate box:

 

Iam a member of the Bar of the Supreme Court of the United States.; (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

O Iam not presently a member of the Bar of this Court. Should a response be requested, the
response will be blag by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme erk’s Office, 1 First Street, NE, Washington, D.C. 20543),

   

 

 

 

Signature 4
Date: K)26 /2|
(Type or print) Nanie Pete id i CAROSO ji = ' oo
ELMr. O Ms. O Mrs. O Miss

A 7
Firm CARUSO+ Capso LeP
\ - J

Address __ g Map Sieéét |

City & State AIVPWER. 1A tip OL BIO

Phone 78-476 -2QOO Email PCAlS0i \@Glosoand ary.
A COPY OF THIS FORM MUST BE SENT ‘TO PETITIONER'S COUNSEL OR 10 PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED,

ce:
